HHS/OIG, Audit -"Review of Pension Costs Claimed by Cahaba Government Benefit Administrators,"(A-07-04-03048)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Pension Costs Claimed by Cahaba Government Benefit Administrators," (A-07-04-03048)
February 18, 2004
Complete
Text of Report is available in PDF format (624 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine the allowability of pension costs claimed for Medicare reimbursement for
Fiscal Years (FYs) 1994 through 2002.  For FYs 1994 through 2002, we determined that Blue Cross and Blue Shield of
Alabama (Cahaba) under claimed allowable Medicare pension costs.  During this period, the allowable Medicare pension
costs were $20,851,684.  However, Cahaba claimed pension costs of $13,766,191 for Medicare reimbursement.  As
a result, Cahaba did not claim $7,085,493 of allowable pension costs.
We recommended that Cahaba revise its Final Administrative Cost Proposals for FYs 1994 through 2002 to claim additional
allowable CAS pension costs of $7,085,493.  Cahaba agreed with our report.